No. 20-

 

IN THE
Supreme Court of the United States

DARRELL HEMPHILL,
Petitioner,
Vv.
STATE OF NEW YORK,
Respondent.

On Petition for a Writ of Certiorari
to the Court of Appeals of New York

CERTIFICATE OF SERVICE

The undersigned certifies that he has this 6th day of November 2020,
caused three copies of the foregoing Petition for a Writ of Certiorari to be
served on the below-named counsel by first-class mail, postage prepaid, and
further certifies that all persons required to be served have been served:

Noah J. Chamoy
Assistant District Attorney
OFFICE OF THE BRONX COUNTY
DISTRICT ATTORNEY
C/O APPEALS UNIT
198 East 161st Street
Bronx, New York 10451
Telephone: (718) 838-7142
Chamoyn@bronxda.nyc.gov

Jeffrey L. Fisher
Counsel for Petitioner
